HHS/OIG, Audit -"Medicaid School-Based Services in Kansas - Adjustment of the Bundled
Rates,"(A-07-06-01030)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid School-Based Services in Kansas
- Adjustment of the Bundled Rates," (A-07-06-01030)
May 23, 2006
Complete
Text of Report is available in PDF format (358 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Kansas adjusted the payment rates for
Medicaid school‑based health services pursuant to Federal regulations.  We found
that Kansas did not adjust the payment rates for Medicaid school-based health services pursuant
to Federal regulations.  Specifically, Kansas did not adjust the payment rates for inflation
consistent with the costs that it used to develop the rates.  Kansas had inadequate
internal controls to ensure that it correctly adjusted the payment rates.  As a result,
each of the 15 payment rates was overstated as of May 2003.  We did not calculate the
resulting overpayments.
We recommended that Kansas (1) work with CMS to appropriately adjust the rates for inflation,
and then calculate and refund the overpayments for fiscal years (FYs) 19982003, (2) calculate
and refund any overpayments that occurred subsequent to our audit period, and (3) develop
and implement adequate internal controls to ensure that future Federal claims for school-based
services comply with Federal requirements and the State plan.  Kansas stated that it
will discuss the first recommendation with CMS.  In regard to the second recommendation,
Kansas stated that it has not increased the payment rates since State FY 2003; therefore, "Any
overpayment . . . would be contained within the audit period."  Kansas concurred
with the third recommendation.